APPLICATION & SOLICITATION DISCLOSURE
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Low Rate

0.00%

Introductory APR for a period of six billing cycles.

16.24% , based on your
After that, your APR will be 9.24%
creditworthiness. This APR will vary with the market based on the Prime
Rate.

to

Visa Platinum

0.00%

Introductory APR for a period of six billing cycles.

11.24% to 16.24%

After that, your APR will be
, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Signature

0.00%

Introductory APR for a period of six billing cycles.

16.24% , based on your
After that, your APR will be 12.24%
creditworthiness. This APR will vary with the market based on the Prime
Rate.

to

Visa Secured/Student

N/A

Introductory APR for a period of six billing cycles.

After that, your APR will be
based on the Prime Rate.

14.24%. This APR will vary with the market

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

00902328-MXC10-C-1-051920 (MXC101-E)

APR for Balance Transfers

Visa Low Rate
0.00% Introductory APR for a period of six billing cycles.
After that, your APR will be 9.24% to 16.24% , based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum
0.00% Introductory APR for a period of six billing cycles.
After that, your APR will be 11.24% to 16.24% , based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Signature
0.00% Introductory APR for a period of six billing cycles.
After that, your APR will be 12.24% to 16.24% , based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Secured/Student
N/A
Introductory APR for a period of six billing cycles.

APR for Cash Advances

After that, your APR will be 14.24%. This APR will vary with the market
based on the Prime Rate.
Visa Low Rate
0.00% Introductory APR for a period of six billing cycles.
After that, your APR will be 9.24% to 16.24% , based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum
0.00% Introductory APR for a period of six billing cycles.
After that, your APR will be 11.24% to 16.24% , based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Signature
0.00% Introductory APR for a period of six billing cycles.
After that, your APR will be 12.24% to 16.24% , based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Secured/Student
N/A
Introductory APR for a period of six billing cycles.
After that, your APR will be 14.24%. This APR will vary with the market
based on the Prime Rate.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

00902328-MXC10-C-1-051920 (MXC101-E)

Penalty APR and When it Applies

Visa Low Rate
None
Visa Platinum
None
Visa Signature
None
Visa Secured/Student
None

How to Avoid Paying Interest on
Purchases
Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Annual Fee
Transaction Fees
- Balance Transfer Fee
- Foreign Transaction Fee
- Transaction Fee for Purchases
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
If you are charged interest, the charge will be no less than $0.50.
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.
None
None
1.00% of each multiple currency transaction in U.S. dollars
0.80% of each single currency transaction in U.S. dollars
None
Up to $27.00
Up to $27.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Promotional Period for Introductory APR:
The Introductory APR for purchases, balance transfers and cash advances will apply to transactions posted to your
account during the first six months following the opening of your account.
Minimum Interest Charge:
The minimum interest charge will be charged on any dollar amount.
Effective Date:
The information about the costs of the card described in this application is accurate as of: August 1, 2020
information may have changed after that date. To find out what may have changed, contact the Credit Union.

. This

For California Borrowers, the Visa Low Rate, Visa Platinum, Visa Signature and Visa Secured/Student are
secured credit cards. Credit extended under this credit card account is secured by various personal property and
money including, but not limited to: (a) any goods you purchase with this account, (b) any shares you
specifically pledge as collateral for this account on a separate Pledge of Shares, (c) all shares you have in any
individual or joint account with the Credit Union excluding shares in an Individual Retirement Account or in any
other account that would lose special tax treatment under state or federal law, and (d) collateral securing other
loans you have with the Credit Union excluding dwellings. Notwithstanding the foregoing, you acknowledge and
agree that during any periods when you are a covered borrower under the Military Lending Act your credit card
will be secured by any specific Pledge of Shares you grant us but will not be secured by all shares you have in
any individual or joint account with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i)
you establish your credit card account when you are not a covered borrower; or (ii) you cease to be a covered
borrower.
Other Fees & Disclosures:
Late Payment Fee

Returned Payment Fee

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

$27.00 or the amount of the required minimum payment, whichever is less, if you fail to
make your required minimum payment by the final calendar day of the month in which
your payment is due.
$27.00 or the amount of the required minimum payment, whichever is less.

00902328-MXC10-C-1-051920 (MXC101-E)

